CERTIFICATE OF WORD COUNT
NO. 20-523
Clarence Matthew Otworth,
Petitioner
v.
PNC Bank,
Respondent
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the PNC BANK BRIEF IN
OPPOSITION contains 2551 words, including the parts of the brief that are required or exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
November 19, 2020

SCP Tracking: Rogers-101 South Fifth Street, Ste. 2500-Cover Orange

